                                                               Issue Date
                                                                    April 17, 2007
                                                               Audit Report Number
                                                                   2007-NY-1005




TO:        Nelson R. Bregon, General Deputy Assistant Secretary for Community Planning
                                     and Development, D


FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: Lower Manhattan Development Corporation, New York, New York,
         Community Development Block Grant Disaster Recovery Assistance Funds


                                  HIGHLIGHTS
 What We Audited and Why

            Pursuant to a congressional mandate, we performed the eighth of our ongoing audits
            of the Lower Manhattan Development Corporation’s (the auditee) administration of
            the $2.783 billion in Community Development Block Grant Disaster Recovery
            Assistance funds provided to the State of New York in the aftermath of the
            September 11, 2001 terrorist attacks on the World Trade Center in New York City.
            The auditee disbursed approximately $76.7 million of these funds during our audit
            period, April 1, 2006 through September 30, 2006.

            Our audit objectives were to determine whether the auditee (1) disbursed Block
            Grant Disaster Recovery Assistance funds in accordance with the guidelines
            established under U.S. Department of Housing and Urban Development (HUD) -
            approved partial action plans, (2) expended Block Grant Disaster Recovery
            Assistance funds for eligible planning and administrative expenses in accordance
            with applicable laws and regulations, and (3) had a financial management system in
            place that adequately safeguards funds.

 What We Found
            The auditee generally disbursed the $76.7 million in Disaster Recovery Assistance
            funds in accordance with HUD-approved action plans, expended Disaster Recovery
           Assistance funds for eligible planning and administrative expenses in accordance
           with applicable laws and regulations, and maintained a financial management
           system that adequately safeguarded the funds. However, the auditee can take
           actions to better monitor Small Firm Attraction and Retention Grant program
           recipients’ compliance with program requirements throughout the term of the grant,
           and provide greater assurance that funds disbursed in the Cultural Enhancement
           Fund program further program objectives.

What We Recommend


           We recommend that HUD’s general deputy assistant secretary for community
           planning and development (1) ensure the recovery of the $6,000 erroneous Small
           Firm Attraction and Retention Grant program payment, (2) require the auditee to
           strengthen controls in the Small Firm Attraction and Retention Grant program to
           more effectively identify any grant recipients who do not remain at eligible business
           premises as stipulated by the grant, and (3) monitor and evaluate the establishment
           of outcome-based performance measures for the Cultural Enhancement Fund
           program to ensure that funded activity will have a positive impact upon the long-
           term revitalization of lower Manhattan.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3. Please
           furnish us copies of any correspondence or directives issued because of the audit.

Auditee’s Response


           We discussed the contents of the report with the auditee during the audit and at an
           exit conference on April 3, 2007, and the auditee provided written comments on
           April 11, 2007. Auditee officials generally agreed with our findings, and advised
           that they are taking or plan corrective action to address the recommendations.

           The complete text of the auditee’s response can be found in appendix B of this
           report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: Grant Funds Were Generally Administered in Accordance With HUD   6
                 Regulations

Scope and Methodology                                                             10

Internal Controls                                                                 11



Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              12
   B. Auditee Comments and OIG’s Evaluation                                       13
   C. Schedule of Program Funding and Disbursements as of September 30, 2006      16




                                            3
                            BACKGROUND AND OBJECTIVES

Following the September 11, 2001 terrorist attacks on the World Trade Center in lower Manhattan,
Congress authorized $3.483 billion in Community Development Block Grant Disaster Recovery
Assistance funds to assist with the recovery and revitalization of lower Manhattan. On November
26, 2001, Congress designated $700 million in Block Grant funding for New York City out of the
Emergency Response Fund that Congress had appropriated. 1 On January 10, 2002, Congress
appropriated an additional $2 billion for Block Grant funding, earmarking at least $500 million to
compensate small businesses, nonprofit organizations, and individuals for their economic losses. 2
On August 2, 2002, Congress appropriated an additional $783 million in Block Grant funding. 3

The Lower Manhattan Development Corporation (auditee), created in December 2001 as a
subsidiary of the Empire State Development Corporation to function as a joint city-state
development corporation, was designated by the State of New York to administer the $2.783
billion appropriated in the January and August 2002 Emergency Supplemental Acts. The Empire
State Development Corporation administers the remaining $700 million. A 16-member board of
directors, appointed equally by the governor of New York and the mayor of New York City,
oversees the auditee’s affairs. The Empire State Development Corporation performs all
accounting functions for the auditee, including payroll, payments to the auditee’s vendors, and
drawing down funds from HUD.

Planned expenditures of Disaster Recovery Assistance funds are documented in action plans that
receive public comment and are approved by HUD. HUD approved 14 partial action plans as of
September 30, 2006 that provided for the allocation of approximately $2.71 billion, or 98 percent
of the $2.783 billion appropriated, to various programs and activities (see appendix C for amounts
by program). As of September 30, 2006, the auditee had disbursed over $1.148 billion, or 42
percent of the $2.71 billion allocated.

For the period April 1, 2006 through September 30, 2006, we reviewed the auditee’s planning and
administrative expenses, monitoring procedures, and disbursements made in the following
programs:

Utility Restoration and Infrastructure Rebuilding: As of September 30, 2006, HUD approved $750
million for this program to provide financial assistance directly to energy and telecommunications
service providers for the reimbursement of qualified emergency and temporary restoration costs, as

1
    2001 Emergency Supplemental Appropriations Act for Recovery from and Response to Terrorist Attacks on the
     United States, Pub. L. 107-38, 115 Stat. 220 and Pub. L. 107-73 Section 434 (2001).
2
    The Department of Defense and Emergency Supplemental Appropriations for Recovery from and Response to
     Terrorist Attacks on the United States Act 2002 (Emergency Supplemental Act 2002), Pub. L. 107-117, 115 Stat.
     2336 (2002).
3
    The 2002 Supplemental Appropriations Act for Recovery from and Response to Terrorist Attacks on the United
     States, Pub. L. 107-206.




                                                           4
well as, for costs associated with the permanent restoration of the utility infrastructure damaged in
the aftermath of the September 11, 2001 terrorist attacks. Additionally, the program seeks to
prevent costs borne by the utility service providers from being passed on to the customers.

World Trade Center (WTC) Memorial and Cultural: As of September 30, 2006, HUD approved
approximately $594 million for this program to fund the planning, selection, coordination and
construction of a memorial, and memorial center. In addition, funds were earmarked for planning
and possible construction of memorial-related improvements, and museum and cultural uses on the
World Trade Center site and adjacent areas, complementing the commercial redevelopment and
infrastructure improvements by the Port Authority, the owner of the World Trade Center Site.

Business Recovery Grant: As of September 30, 2006, HUD approved $224.5 million for this
program to provide economic loss compensation for small businesses and not-for-profits, based on
a percentage of gross revenue and the business’s location within the eligible area. Of the approved
amount, $10 million was allocated for repayment to the City and State for the Retail Recovery
Grant and the Lower Manhattan Non-Retail Recovery programs. These programs provided
economic loss compensation to small business in lower Manhattan during the fall of 2001 while
federal funding was being secured.

Small Firm Attraction and Retention Grant: As of September 30, 2006, HUD approved $50 million
for this program to help retain and create jobs at assisted firms.

Our audit objectives were to determine whether the auditee (1) disbursed Block Grant Disaster
Recovery Assistance funds in accordance with the guidelines established under HUD-approved
partial action plans, (2) expended Block Grant Disaster Recovery Assistance funds for eligible
planning and administrative expenses in accordance with applicable laws and regulations, and (3)
had a financial management system in place that adequately safeguards funds.




                                                  5
                             RESULTS OF AUDIT

Finding 1: Grant Funds Were Generally Administered in Accordance With HUD
              Regulations

The auditee generally disbursed the $76.7 million in Disaster Recovery Assistance funds in
accordance with HUD-approved action plans, expended Disaster Recovery Assistance funds for
eligible planning and administrative expenses in accordance with applicable laws and regulations,
and maintained a financial management system that adequately safeguarded the funds. However,
opportunities exist to strengthen internal controls over the disbursement of funds. For example, an
incorrect calculation resulted in an erroneous $6,000 overpayment to a grant recipient in the Small
Firm Attraction and Retention Grant program, and additional monitoring procedures would ensure
that grant recipients comply with the grant provisions throughout the term of the grant. In
addition, the development of outcome-based performance measures for the Cultural Enhancement
Fund program needs to be monitored and evaluated to ensure that the disbursement of these funds
most effectively achieves program objectives. These improvements will help to ensure adherence
to OMB Circular A-87, which states that governmental units are responsible for the efficient and
effective administration of Federal awards through the application of sound management practices.

Error in Calculating the Grant

              On January 31, 2005, the auditee entered into a subrecipient agreement with its
              parent company to provide funds for the Small Firm Attraction & Retention Grant
              program. Grants are disbursed in two parts – the first part is made upon the initial
              approval of the grant and the second part is made 18 months subsequent to the first
              payment, with the amount of the grants based upon the location and the number of
              employees in the firm. During our audit period, the subrecipient disbursed almost
              $8.1 million to 226 grant recipients. We reviewed 27 of these grant recipients and
              found that incorrect disbursements were made in two cases. The first error was
              corrected after the grant recipient notified the subrecipient of an underpayment. A
              second error occurred because the 18th month installment payment had been
              calculated using the wrong location. A similar error occurred for the initial grant
              amount, resulting in an incorrect payment. As a result, the grant recipient was
              overpaid $6,000. When we notified the subrecipient of the errors, it sent a letter to
              the grant recipient requesting repayment of the $6,000. The recipient responded
              that it plans to repay the erroneous payment.

 Procedures to Monitor
 Recipient Compliance Can Be
 Strengthened
              OMB Circular A-87 states that governmental units are responsible for the efficient
              and effective administration of Federal awards through the application of sound
              management practices. As such, procedures to ensure that Small Firm Attraction


                                                 6
                   and Retention Grant program recipients complied with grant provisions should be
                   strengthened. In addition to meeting initial eligibility requirements, grant recipients
                   are required to remain at their business location for five years. Grants were
                   awarded to eligible businesses in two installments: upon approval of a grant
                   application and 18 months subsequent to the first installment. While the
                   subrecipient generally had strong controls over the initial approval of grant
                   recipients and for second installment payments, it had not established written
                   procedures to periodically ensure that grant recipients complied with the five-year
                   retention requirement.

                   In response to this observation, in January 2007, the subrecipient amended its
                   program monitoring procedures to include mailing compliance letters no more than
                   six months before the end of the five-year period to verify that the business had
                   remained at the eligible premises. While this amended procedure, which has not
                   been implemented, partly responds to our concern, these procedures can be
                   strengthened. As amended, the procedures allow almost three years to pass
                   between the time of the final payment (18 months after the initial payment) and the
                   planned issuance of the compliance letters. This lapse in time can prevent
                   identification of noncompliant recipients and initiation of corrective action in a
                   timely manner.

    Outcome-Based Measures Are
    Needed to Assess the Cultural
    Enhancement Fund Program

                   The auditee identified supporting cultural life as an important lower Manhattan
                   redevelopment objective. Consequently, $28 million 4 has been allocated to the
                   Cultural Enhancement Fund program, which was approved on the basis that it
                   would serve as a catalyst for increased residential, commercial, retail, and other
                   neighborhood activities, which would in turn, spur the long-term economic
                   development of lower Manhattan.

                   The intended effect of these grants is consistent with one of the uses of Community
                   Development Block Grant funds: economic redevelopment, however, the scope of
                   the effort requires that adequate performance measures be established to track and
                   evaluate the outcome of the funded activities. The auditee incorporated agreement
                   specific performance measures in the 26 subrecipient agreements it has executed
                   under this program as of February 2007; however, these measures primarily will
                   evaluate monthly progress of each project against its planned timeframes. As such,
                   these measures do not provide a comprehensive framework to evaluate the overall
                   program’s long-term effect upon the economic revitalization of lower Manhattan,
                   which is a key objective of the Disaster Recovery Assistance funds and the
                   program.

4
    Partial action plan 11, approved March 27, 2006, allocated $35 million; however, this was subsequently amended to
    $28 million.

                                                           7
             In its August 2006 periodic monitoring report of the auditee, HUD noted that the
             use of arts-related activities on a scale as large as envisioned in the Cultural
             Enhancement Fund program as a tool for comprehensive revitalization has little
             Community Development Block Grant precedent. In response, the auditee noted
             that it planned to identify and develop performance and outcome measures to
             evaluate the effects of this project on the long-term revitalization of lower
             Manhattan. Accordingly, in September 2006, the auditee approved an amendment
             to one of its economic impact service contracts to include the evaluation of the
             Cultural Enhancement Fund program. The amendment, through a work order,
             provided that the consultant would identify quantitative performance indicators,
             develop a standard method for calculating indicators, create forms for collecting
             data from grant recipients, set up a database to track information, and calculate and
             report on program activities, economic impacts and performance measures. These
             services were to be provided no later than December 2007 at a cost not to exceed
             $30,000. However, the development of these measures should be monitored and
             evaluated by HUD to ensure that they will provide an effective means with which to
             evaluate this program’s effect upon the long-term revitalization of lower Manhattan
             before all allocated funds are disbursed.

Conclusion

             The auditee generally administered grant funds in accordance with HUD regulations,
             but there are opportunities to improve controls. Six thousand dollars erroneously
             disbursed to a grant recipient in the Small Firm Attraction and Retention Grant
             program should be recovered. This was caused by an incorrect calculation of the
             amount to which the grant recipient was entitled. In addition, the auditee can
             strengthen its ability to detect potential grant recipient noncompliance and affect
             recovery of funds by periodically confirming grant recipients’ locations throughout the
             term of the grant. Further, given the extent of activities to which funds are allocated
             under the Cultural Enhancement Fund program, development and implementation of
             outcome-based performance measures is necessary to ensure that funds expended will
             achieve the intended results.

Recommendations

             We recommend that HUD’s general deputy assistant secretary for community
             planning and development require the auditee to:

             1A. Ensure recovery of the $6,000 overpayment made to a grant recipient under
                 the Small Firm Attraction and Retention Grant program.

             1B. Strengthen controls over the calculation and disbursement of Small Firm
                 Attraction and Retention grants to prevent overpayments.

             1C. Strengthen controls to identify Small Firm Attraction and Retention grant
                 recipients who do not remain at eligible business premises for five years as

                                                8
     stipulated in the grant agreement by requesting periodic confirmations from all
     grant recipients.

1D. Finalize development and implementation of outcome-based performance
    measures against which to evaluate how the Cultural Enhancement Fund
    program achieves the objectives of the Disaster Recovery Assistance Funds.
    Progress against such measures should be incorporated in periodic reporting to
    HUD so that HUD can evaluate the extent to which these funds are being
    effectively spent.

In addition, we recommend that HUD’s general deputy assistant secretary for
community planning and development:

1E. Evaluate the outcome based performance measures and tracking systems
    developed by the auditee to ensure that they are effective in measuring the
    achievements of the Cultural Enhancement Fund Program in contributing to
    the long-term revitalization of lower Manhattan.




                                  9
                           SCOPE AND METHODOLOGY

During the audit period, April 1, 2006, through September 30, 2006, the auditee disbursed $76.7
million of the $2.783 billion in Disaster Recovery Assistance funds for activities related to the
rebuilding and revitalization of lower Manhattan. We tested $31 million, representing
approximately 40 percent of the amount disbursed for the period.

To achieve our audit objectives, we reviewed applicable laws, regulations, and program
requirements; HUD-approved partial action plans; and the auditee’s accounting books and records.
We examined and tested the documentation supporting disbursements related to the following:

                 Program                       Amount disbursed April 1                      Amount tested
                                                through Sept. 30, 2006
Utility Restoration and
Infrastructure Rebuilding                             $ 1.24 million                        $ 1.24 million

World Trade Center Memorial
and Cultural                                          $46.18 million                         $22.88 million

Business Recovery Grant                               $ 5.06 million                        $ 5.06 million

Small Firm Attraction and
Retention Grant                                       $ 8.09 million                        $ 1.74 million


We also reviewed $145,491 in the auditee’s planning and administrative expenses, along with their
policies and procedures for monitoring the above programs.

The audit covered the period from April 1, 2006, through September 30, 2006, and was expanded
when necessary. For example, we reviewed the Cultural Enhancement Fund program, for which
HUD approved $35 million 5 as of September 30, 2006. The purpose of this program is to provide
cultural facilities or programming in lower Manhattan to spur long-term revitalization. While
funds were not disbursed for this program during our audit period, we are concerned that the
auditee has not identified and developed performance measures to evaluate the effects of these
projects on the long-term revitalization of the downtown area.

We performed our on-site work at the auditee’s office in lower Manhattan and at the auditee’s
parent company, the Empire State Development Corporation, in midtown Manhattan, New York
from October 2006 through March 2007.

We performed our review in accordance with generally accepted government auditing standards.


5
    The auditee later amended the action plan reducing the allocation by $7 million to $28 million, of which $27.4
     million has been obligated.


                                                            10
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its mission,
goals, and objectives. Internal controls include the processes and procedures for planning,
organizing, directing, and controlling program operations. They include the systems for
measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              •       Validity and reliability of data - Policies and procedures that management has
                      implemented to reasonably ensure that valid and reliable data are obtained,
                      maintained, and fairly disclosed in reports.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling program
              operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe there are no significant weaknesses.


                                                11
                                    APPENDIXES

Appendix A

                  SCHEDULE OF QUESTIONED COSTS

                   Recommendation             Ineligible 1/
                          number
                                 1A                  $6,000
                                Total                $6,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local polices
     or regulations.




                                                12
Appendix B

         AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




                           13
Appendix B

         AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation               Auditee Comments




Comment 1



Comment 1




Comment 2




Comment 1




                        G Evaluation of Auditee Comments



                                      14
                          OIG Evaluation of Auditee Comments

Comment 1   The auditee has agreed to take recommended action.

Comment 2   While the auditee believes that its current procedures are adequate, the auditee has
            agreed to take the recommended action. The amended procedures will more readily
            identify recipients that may not comply with the retention requirement. This action
            will strengthen the auditee’s detection controls for noncompliant recipients, and
            therefore, enhance recovery of grant funds from any of these recipients.




                                             15
Appendix C

                     SCHEDULE OF PROGRAM FUNDING AND
                     DISBURSEMENTS AS OF SEPTEMBER 30, 2006

                                                         Audit period        Cumulative           Balance
                                           Budget as of
                                                        disbursements       disbursed as       remaining as
              Program                       Sept. 30,
                                                        April 1 - Sept.      of Sept. 30,       of Sept. 30,
                                              2006
                                                           30, 2006              2006              2006
Business Recovery Grant                      $224,500,000      $5,067,395      $218,940,531         $5,559,469
Job Creation and Retention                    150,000,000      11,992,204        74,558,219         75,441,781
Small Firm Attraction                          50,000,000       8,094,500        15,753,500         34,246,500
Residential Grant (Housing Assistance)        280,500,000                       235,853,904         44,646,096
Employment Training Assistance                    500,000                           345,909            154,091
Memorial Design & Installation                    350,000                           299,969             50,031
Columbus Park Renovation                          998,571                                              998,571
Marketing History/Heritage Museums              4,664,000        470,156           3,118,146         1,545,854
Downtown Alliance Streetscape                   4,000,000                          4,000,000
New York Stock Exchange Area
Improvements                                   25,160,000            508           5,468,975        19,691,025
Neighborhood Parks and Open Space              46,981,689                          9,720,492        37,261,197
Hudson River Park Improvements                 72,600,000        189,391           2,669,050        69,930,950
Millennium High School                          3,007,500                                            3,007,500
West Street Pedestrian Connection              22,955,811                        12,842,870         10,112,941
Lower Manhattan Communications
Outreach                                        1,000,000                           887,777             112,223
Pace Green Roof Project                           100,000                                               100,000
Chinatown Tourism and Marketing                 1,160,000                           919,925             240,075
Lower Manhattan Information                     2,570,000                         1,752,391             817,609
World Trade Center Memorial and Cultural      594,017,180      46,181,133       263,456,355         330,560,825
Lower Manhattan Tourism                         4,176,000         165,000         3,951,650             224,350
East River Waterfront Project                 150,000,000         127,652           157,731         149,842,269
Local Transportation & Ferry Service            9,000,000                                             9,000,000
East Side K-8 School                           20,000,000         14,172             14,172          19,985,828
Fitterman Hall Reconstruction                  15,000,000                                            15,000,000
Chinatown Local Development Corporation         7,000,000                                             7,000,000
Affordable Housing                             50,000,000           7,153             7,153          49,992,847
Public Service Activities                       7,296,900         272,278         4,729,207           2,567,693
Administration & Planning                     115,000,000       2,877,938        64,256,172          50,743,828
Disproportionate Loss of Workforce             33,000,000                        32,999,997                   3
Utilities Restoration and Infrastructure      735,000,000       1,242,245       191,555,423         543,444,577
Cultural Enhancement Fund                       35,000,000                                           35,000,000
The Drawing Center                              10,000,000                                           10,000,000
Fulton Corridor Revitalization                  38,000,000                                           38,000,000
                               TOTALS       $2,713,537,651    $76,701,725     $1,148,259,518     $1,565,278,133




                                                         16
